Fredrikson
October 2, 2020

Hon. Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
One First Street, N.E.
Washington, D.C. 20543
Re:

Paskert v. Kemna-ASA Auto Plaza, Inc., dba Auto Smart ofSpirit Lake, et al.,
No. 20-27

Dear Mr. Harris:
I am counsel for Brent Weringa, Kenneth Kemna, Auto$mart, Inc., and Kemna Motor Company,
respondents in the above-captioned matter. The petition for writ of certiorari in this case was
docketed on July 20, 2020, making responses due August 19. Under Rules 15.3 and 30.4 of this
Court's rules, Respondents' first unopposed extension request was granted, extending the time to
October 5, 2020, for all responses to the petition.
Under Rules 15.3 and 30.4 of this Court's rules, Respondents respectfully request a second
unopposed extension of time to and including October 19, 2020, for all responses to the petition.
Two reasons underlie the request.
First, Covid-19 has impaired counsel's ability to consult with one another and to research and
prepare an opposition brief. Second, counsel's other obligations make an extension necessary.
For example, undersigned counsel, principally responsible for researching and preparing the
opposition, appeared at two trials in September and prepared dispositive filings in multiple other
state and federal cases. Petitioner does not oppose the requested second extension. Respondents
envision no additional extension requests.
Respondents thus request that the deadline for responses to the petition be extended to October
19, 2020.

Attorneys & Advisors
main 515.242.8900
fax 515.242.8950
fredlaw.com

MEMBER OF THE WORLD SERVICES GROUP
A Worldwide Network of Pro fessional Service Pro viders

Fredrikson & Byron, P.A.
505 E. Grand Avenue, Suite 200
Des Moines, Iowa
50309-1977

OFFICES

Minneapolis/ Bismarck/ Des Moines/ Fargo/ St. Paul/ Saltillo, Mexico/ Shanghai, China

